U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                   PUBLIC
                  RELEASE


             BUREAU OF THE CENSUS
                      Accountable Property Used
                        for the Decennial Census
                        Needs Improved Controls

         Bankcard Program Is Well Managed
     Final Audit Report No. ESD-11781-0-0001/March 2000




    Office of Audits, Economics and Statistics Audits Division
U.S. Department of Commerce                                                      Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                                              March 2000

                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          I.         Controls Over Personal Property Need to Be Improved . . . . . . . . . . . . . . . . . . . . 5

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          II.        Periodic Physical Inventories Need to Be Conducted . . . . . . . . . . . . . . . . . . . . . . 7

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          III.       Transferred and Loaned Property Requires Better Control . . . . . . . . . . . . . . . . . . 8

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          IV.        Bankcard Program Is Well Managed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                     Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                     OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          Appendix I - Agency Response to Draft Audit Report
U.S. Department of Commerce                              Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                      March 2000

                                   EXECUTIVE SUMMARY

The Constitution mandates that a census of the nation’s population be taken every 10 years for
the purpose of apportioning seats within the House of Representatives. While apportionment is
the most widely known use of decennial census data, it is also used for congressional
redistricting, managing federal agencies, and allocating federal funds. The decennial census
provides official information on this country’s people and their social, demographic, and
economic characteristics.

The Bureau of the Census has the responsibility for conducting decennial censuses. In
preparation for the next decennial census, to be conducted on April 1, 2000, the bureau has
established temporary field offices throughout the United States and Puerto Rico. By the close of
1999, there were 12 regional census centers (RCCs), 520 local census offices, an area office in
Puerto Rico, and four data capture centers in operation.

Over $60 million of personal property will be placed in temporary field offices for the decennial.
As part of our audit, we reviewed controls over accountable personal property in the Boston, Los
Angeles, and Dallas RCCs. Accountable personal property includes capitalized personal
property, office furniture and equipment having a unit cost of $2,500 or more, sensitive items
(items that are easily convertible to personal use or have a high potential for theft), borrowed or
leased personal property, and contractor, grantee, accountable, or sensitive property. We also
conducted physical inventories at the three RCCs, the San Juan, Puerto Rico, area office (which
is administratively under the Boston RCC); and six local census offices, two in each of the three
regions visited.

As part of our audit, we also reviewed bankcard transactions at the Boston, Los Angeles, and
Dallas RCCs and the area office in San Juan, Puerto Rico. Although the regional directors are
authorized to issue bankcards to LCOs, at the time of our review, none of the local field offices in
those regions had been issued bankcards.

Our audit disclosed the following areas where the bureau needs to make improvements to better
manage its accountable personal property:

l      Bureau personnel did not properly record hundreds of items in the property books or in
       the Automated Property Management System. Much of the accountable personal
       property located at the RCCs was not on either the headquarters’ or the RCCs’ inventory
       listings. For example, almost 30 percent of the property we inventoried at the Dallas RCC
       was not on any inventory listing. We recommend that the bureau require each RCC and
       area office to designate staff specifically to receive personal property and maintain
       adequate accountability (see page 5).



                                                 i
U.S. Department of Commerce                             Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                     March 2000

l      The bureau requires complete physical inventories of accountable personal property at
       regular intervals, generally at least once a year. However, physical inventories had not
       been conducted at any of the RCCs we visited even though they had been open for more
       than a year. Moreover, bureau property records were not reconciled with financial records.
       We recommend that the bureau ensure that required physical inventories of accountable
       property are conducted annually and that the property and accounting records are
       promptly adjusted, as necessary, to reflect the inventory results (see page 7).

l      Bureau personnel did not carefully control transferred personal property. Specifically, we
       noted a lack of documentation to show approval for transferred property and property not
       being posted in property records. We recommend that the bureau strengthen controls over
       transferring accountable property to ensure that transfers are properly approved and
       documented in accordance with procedures. Bureau personnel also did not obtain
       required prior approval for and improperly documented a loan of accountable property to
       another agency. We recommend that the bureau provide increased oversight of the
       property management system to ensure that transfers and loans of accountable property
       to other agencies are approved and documented in accordance with procedures (see page
       8).

The Bureau concurred with these recommendations. The Bureau’s response to our draft report is
attached as Appendix I and we have incorporated the Bureau’s comments into the final report where
appropriate. We commend the Bureau on its responsiveness in taking quick action to address the
concerns noted in our report. For example, the Bureau has completed full physical inventories in nine
of the twelve regions, with the remaining three regions and Puerto Rico to be completed in March
2000. The Bureau has also designated staff to be responsible for receiving and recording personal
property.

Our audit of bankcard transactions disclosed that the bureau was properly administering the
bankcard program, and that regional personnel were following appropriate internal control
procedures and exercising sound management practices in the order, receipt, and recording of
purchases. However, we recommended that the bureau consider establishing additional controls,
including a reduced dollar limit, such as $100 per single purchase, on any cards issued to LCOs.
Although the Bureau stated that they did not concur with our recommendation, they did in fact
consider our proposal and determined that additional controls would hamper the needs of LCOs
in an emergency. We believe that the bureau’s action met the intent of our recommendation.




                                                ii
U.S. Department of Commerce                               Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                       March 2000

                                        INTRODUCTION

The Constitution mandates that a census of the nation’s population be taken every 10 years for the
purpose of apportioning seats within the House of Representatives. Decennial census data is also
used for congressional redistricting, managing federal agencies, and allocating federal funds, and is
disseminated to state and local governments, academia, and the private sector as well. The
decennial census provides official information on the country’s people and their social,
demographic, and economic characteristics.

The Commerce Department’s Bureau of the Census is responsible for conducting decennial
censuses. In preparation for the next decennial census, to be held on April 1, 2000, the bureau
established temporary field offices throughout the United States and Puerto Rico. Operation of
these offices requires large quantities of personal property, such as furniture, photocopy
machines, data processing equipment, and facsimile machines. In addition, government purchase
cards have been issued to personnel at some of the field offices to expedite and simplify small
purchases.

Both the Department’s Personal Property Manual and the Bureau of the Census’s
Administrative Manual recognize the importance of maintaining controls over the acquisition of
accountable property.

The Bureau of the Census’s Automated Property Management System (APMS), a database
comprising all accountable property items assigned to each division and office in the bureau, is
designed to provide the necessary data for the identification, management, and accountability of
bureau accountable property items, which include all:

l      capitalized personal property,
l      office furniture and equipment having a unit cost of $2,500 or more,
l      sensitive items (items that are easily convertible to personal use or have a high potential for
       theft),
l      borrowed or leased personal property, and
l      contractor, grantee, accountable, or sensitive property.

Property control and accountability systems are required to provide for current, accurate property
records and the proper documentation and processing of property transactions. The bureau’s
system of accountability and control is depicted on the following page.




                                                  1
U.S. Department of Commerce                             Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                     March 2000




Within the bureau, field office managers are responsible for administering the property
management program under the direction of the Field Division, with policy administered by the
Administrative Customer Services Division (ACSD). Within ACSD, the Property Accountability
Branch

l      records all acquisitions, transfers, and disposition of property;
l      maintains an automated property records system that identifies all accountable property
       items assigned to each office;
l      schedules physical inventories; and
l      investigates and makes recommendations concerning instances of lost, stolen, damaged,
       and abandoned property.

The Finance Division is responsible for maintaining the official general ledger accounts showing
the recorded cost of the bureau’s property.

In 1986, several agencies, including the Department of Commerce, conducted a pilot project that
identified opportunities for reducing administrative procurement costs through the use of
bankcards. In 1989, the bankcard was made available government-wide through a contract


                                                2
U.S. Department of Commerce                             Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                     March 2000

administered by the General Services Administration. Bankcard use was facilitated by the Federal
Acquisition Streamlining Act of 1994 and Executive Order 12932, which eliminated some
requirements for purchases of $2,500 or less, known as “micro-purchases,” and encouraged
agencies to move the authority to make simple purchases from procurement offices to program
offices. In fiscal year 1996, bankcards were used government-wide to make about 4 million
purchases totaling more than $1.6 billion.

Census Bureau officials are responsible for ensuring that bankcard usage complies with the
Federal Acquisition Regulation (FAR) and Commerce Acquisition Manual requirements. The
Department’s Office of Acquisition Management is responsible for overseeing management of the
bankcard program within Commerce and, in turn, has delegated that authority to the Heads of
Contracting Offices (HCOs). The Census Bureau HCO further delegated purchasing authority to
local approving officials and individual cardholders. HCOs, approving officials, and cardholders
all have responsibilities to ensure that the bankcard program is properly administered.

                             PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to (1) evaluate the adequacy of the bureau’s internal controls over
personal property used by its field offices in preparation for the 2000 decennial, (2) ensure
compliance with laws, regulations, policies and procedures governing personal property, and (3)
determine whether decennial field offices were utilizing their bankcards in accordance with FAR,
Part 13, “Simplified Acquisition Procedures,” and the Commerce Acquisition Manual, Part 13,
“Commerce Purchase Card Procedures.” We reviewed applicable laws, regulations, policies, and
procedures; examined selected files and records; and reviewed appropriate documentation. We
interviewed headquarters officials in Suitland, MD; regional census center (RCC) personnel in
Boston, Massachusetts, Los Angeles, California, and Dallas, Texas; area office personnel in San
Juan, Puerto Rico; and local office staff in Lowell and Boston, Massachusetts, Long Beach and
Los Angeles, California, and Dallas and Ft. Worth, Texas.

We reviewed and evaluated the bureau’s compliance with the following applicable laws and
regulations, Commerce policies, and procedures:

l      Department of Commerce Personal Property Management Manual.
l      Federal Property Management Regulations.
l      Department Organization 20-1.
l      Federal Acquisition Regulations, Part 13.
l      Department of Commerce Acquisition Manual, Part 13.
l      Department of Commerce Acquisition Circular 96-01.

We found no instances of non-compliance with applicable laws and regulations.




                                                3
U.S. Department of Commerce                              Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                      March 2000

We reviewed the adequacy of internal controls and assessed the reliability of certain computer-
generated data used in our review. We concluded that the data was sufficiently reliable for use in
meeting our audit objectives. We did not assess the overall reliability of computer systems
because the OIG’s Office of Systems Evaluation is conducting separate reviews of decennial-
related computer systems.

Our audit was conducted at Census Bureau headquarters in Suitland; the Boston, Los Angeles,
and Dallas RCCs; the area office in San Juan; and selected local census offices (LCOs). The audit
was conducted in accordance with Government Auditing Standards and was performed under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.




                                                 4
U.S. Department of Commerce                                Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                        March 2000

                           FINDINGS AND RECOMMENDATIONS

I.     Controls Over Personal Property Need To Be Improved

Our review disclosed deficiencies in the bureau’s controls over personal property. Discrepancies
were found between the official inventory listings generated by APMS and the personal property
actually located at the field offices we visited.

Hundreds of items purchased or leased for the 2000 Decennial Census were not recorded in the
property books or in APMS. As a result, the inventories for the field offices did not accurately
reflect the personal property located at these offices. For example, almost 30 percent of the
property, valued at $471,591, at the Dallas RCC was not on the inventory list. Similar
conditions existed at the other field offices we visited.

We found two probable causes for the discrepancies we noted. First, RCCs had no designated
staff or receiving point in the RCC for property, and as a result, incoming property was delivered
directly to various staff members, who did not always record its receipt. Second, the staff
designated to control personal property were generally assigned to other duties as well and did not
have the time to record property. Such omissions weaken the controls over accountable property
and create a potential for property to be lost, stolen, or improperly used.

The Census Property Management Job Aid states that the following five operational actions need
to be properly documented in order to successfully maintain and control property: (1) receiving,
(2) transferring, (3) posting, (4) disposing, and (5) inventorying. When an RCC receives property,
designated staff is to verify the contents of material received, post it in the property book, enter the
information into APMS, and place documentation in the document book. At an LCO, the
contents are to be verified, designated staff are to post it in the document register page of the
Property Management Book D-616, and the documentation is to be placed behind the document
register page. This information is to be forwarded to the RCC for input into APMS.

However, in the regions we reviewed, many items of accountable property had not been recorded
in the property book, or on the document register page, or input into APMS. Although
information showing the total extent of omissions is unavailable, existing documentation reveals
that the problems are of sufficient importance to warrant attention.

We conducted a complete physical inventory at all locations visited and found 463 accountable
items, with a total value of more than $1 million, that had not been placed in the property
inventory records. We also found 156 accountable items, totaling $374,109, that were listed but
could not be located at the time of our review. Specifically:

l      The Boston RCC had 80 accountable items, totaling $239,721, that were not listed on the
       APMS. In addition, 46 items, totaling $94,618, were on the official inventory list but could


                                                   5
U.S. Department of Commerce                               Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                       March 2000

       not be located at the RCC. Also, some items received from headquarters were not bar
       coded as required. The individual who was responsible for maintaining property
       accountability was also responsible for the acquisition of space for the LCO, and
       maintaining control over personal property was not a priority. After our visit, we were
       told that the RCC had hired two staff persons whose specific duties are to maintain
       adequate property accountability.

l      The Puerto Rico Area Office had 42 accountable items, totaling $43,017, that were not
       listed on the official inventory listing; the property book was not current; some items had
       the wrong bar code numbers assigned; and an office inventory list showed some items as
       having been disposed of, when in fact they were still in the office.

l      The Los Angeles RCC had 161 accountable items, totaling $371,442, that were not listed on
       the official inventory listing. In addition, there were 62 items, totaling $193,935, recorded in
       the official inventory listing that we could not locate.

l      The Dallas RCC had 180 accountable items, totaling $471,591, that were not recorded in
       the official inventory listing. And 48 items, worth $85,556, that were on the official
       inventory listing could not be located. After our review, we were told that the office had
       designated one person to provide adequate property accountability. Also, all LCOs have
       now had property books distributed to them. And, at the Dallas and Fort Worth LCOs,
       bar codes have now been placed on items that were not previously bar coded.

Recommendation

We recommend that the Director, Bureau of the Census, require that each regional census center
and area office designate staff specifically to receive and maintain adequate accountability for
personal property.

Agency Response

The Census Bureau concurred with our recommendation and has taken steps to ensure that the
RCCs have designated staff for receiving property and maintaining property records. For
example, some RCCs have new hires to help control and process property documents and assist
with updating the Automated Property Management System (APMS); the Field Decennial
Logistics Clearinghouse, established in May 1999, is monitoring and controlling the flow of
property documents between headquarters and decennial field offices; and clarifications to
instructions for maintaining the Property and Document Books underscore the importance of
maintaining accurate and current property records.


                                                  6
U.S. Department of Commerce                              Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                      March 2000


OIG Comment

These actions, if properly implemented, meet the intent of our recommendation.

II.    Periodic Physical Inventories
       Need to Be Conducted

Our review disclosed that bureau personnel had not conducted periodic physical inventories as
required by Census’s Administrative Manual. Physical inventories are an important component
of internal controls because they provide an established basis for identifying property on hand and
reconciling this information with applicable property records. Without physical inventories, it is
impossible to determine if property is missing and, if so, how much.

The manual states that “Physical inventories of accountable property must be taken at regular
intervals, generally at least once a year or an equivalent cycle commensurate with the value of the
personal property and the complexity of operations of the Operating Unit. Property management
activities and financial accounting activities should coordinate the establishment of schedules and
procedures for taking inventories.” During our site visits to the RCCs, we found they had not
taken the required physical inventories, although they had been in operation since early 1998.

Consistent with this policy, the bureau’s Administrative Manual specifies that Property
Accountability Branch personnel will conduct and monitor the physical inventories of all
headquarters and Census Bureau divisions/offices annually and provide training on inventory
procedures before taking inventory.

Since our site visits, the bureau has taken action to comply with property inventory requirements.
A September 2, 1999, memorandum from the Associate Director for Finance and Administration
to the Field Division and the Office of Finance, Office of Acquisition, ACSD, and the National
Processing Center, established an Accountable Property Inventory Task Force to conduct 100-
percent inventories of the National Processing Center, Regional Offices, and Regional Census
Centers. This task was scheduled to be completed by October 20, 1999.

Recommendation

We recommend that the Director, Bureau of the Census, ensure that required physical inventories
of accountable property are conducted annually and that the property and accounting records are
promptly adjusted, as necessary, to reflect the inventory results, as required by the Administrative
Manual.

                                                 7
U.S. Department of Commerce                               Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                       March 2000

Agency Response

The Bureau concurred with our recommendation and has completed full physical inventories at
RCCs and Accuracy and Coverage Evaluation Offices in nine regions. The three remaining
regions and Puerto Rico will be completed by March 2000.

OIG Comment

The actions taken and planned, if properly implemented, meet the intent of our recommendation.

III.   Transferred and Loaned Property Requires Better Control

During our audit, we found property improperly transferred to the Puerto Rico Area Office and
the Los Angeles RCC. Twenty-one microfiche readers, totaling $5,859, were transferred to the
Los Angeles RCC, and 17 accountable items, totaling $23,447, were transferred to the Puerto Rico
Office. In addition, we found that property on loan to the General Services Administration (GSA)
was improperly documented. The Puerto Rico Area Office used the BC-1550 “Property Pass” to
lend two Hewlett Packard printers, valued at $7,900, to GSA. In none of these instances was the
required record, CD-50, “Personal Property Control,” prepared.

The bureau’s Administrative Manual specifies that transfers of accountable property between
property custodians should be documented and posted promptly to the accountable and custodial
records. It recognizes the importance of controlling transfers and loans of accountable property
and specifies that transfers between bureau units or to other agencies or loans to other agencies are
not permitted without prior notification and approval of the Chief, Property Accountability
Branch, ASCD.

The manual requires that all transferred and loaned property be accompanied by a CD-50. This
form must be forwarded with each transfer or loan of accountable property with the signatures of
both the releasing and receiving property custodian for the transfer or loan to be considered
complete. The office receiving the transfer or loan of the property should document the receipt on
the CD-50 and send one copy to the originator. Each office should retain a copy of the CD-50,
and forward a copy to the Property Accountability Branch, ACSD, for input into APMS.

Recommendation

We recommend that the Director, Bureau of the Census, ensure that transfers and loans of
accountable property to other agencies are properly approved and documented in accordance with
bureau procedures.


                                                 8
U.S. Department of Commerce                               Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                       March 2000

Agency Response

The Bureau concurred with our recommendation. In accordance with Census Bureau property
management procedures, Field Division will send a memorandum to all decennial census field
offices reminding them that whenever accountable property is loaned to another government
agency, staff must:

       a.      Prepare manual Forms, CD-50, Personal Property Control.

       b.      Have the responsible party at the receiving agency sign the CD-50 acknowledging
               receipt.

       c.      Retain the original of the signed CD-50 in the field office.

ACSD is finalizing procedures mandating that shipping and receiving units in all Census Bureau
facilities be provided with an APMS-generated CD-50, Personal Property Control (transfer
document), to transmit with accountable property as it leaves the loading dock. Once
implemented, the procedures should help ensure the availability of proper documentation for the
receiving field offices as well as facilitate APMS updating.

OIG Comment

These actions, if properly implemented, meet the intent of our recommendation.

IV.    Bankcard Program Is Well Managed

In conjunction with our audit of personal property, we conducted a review of the use of bankcards
for small purchases at the three RCCs and the Puerto Rico Area Office. The purpose of this
review was to determine whether the field offices were using their bankcards in accordance with
applicable policies and procedures. We examined bankcard transactions and supporting
documentation from the office openings to the date of our review.

Our field work revealed no significant problems in the management and operation of the bankcard
program. We found that the program was being properly administered and that regional
personnel followed appropriate internal control procedures and exercised sound management
practices in the order, receipt, and recording of bankcard purchases.

In the three regions reviewed, only the RCCs had been issued bankcards. While the regional
directors are authorized to issue bankcards to the LCOs, at least one regional director advised us
that he has no plans to distribute them to LCOs. Others were undecided. Placing bankcards in
LCOs could raise a number of concerns, among them the sheer number of bankcards that would

                                                  9
U.S. Department of Commerce                             Final Audit Report ESD-11781-0-0001
Office of Inspector General                                                     March 2000

be involved, the wisdom of providing bankcards to temporary employees, and the difficulty of
RCCs distant from LCOs providing adequate oversight of bankcards.

Recommendation

We recommend that the Director, Bureau of the Census, consider imposing additional controls,
including a reduced dollar limit, such as $100 per single purchase, on bankcards that are
distributed to LCOs. Reducing the purchase limit would have the effect of limiting the potential
loss to the government due to misuse of the card.

Agency Response

The Bureau did not concur that additional controls, such as a $100 transaction limit, were needed
on bankcards distributed to LCOs. The Bureau believes there are adequate controls over
bankcards and that the $100 transaction limit would not adequately meet the needs of the LCOs in
an emergency.

OIG Comment

Our recommendation was that the Bureau consider imposing additional controls, such as a $100
transaction limit, only on cards distributed to LCOs. We found no problems with internal controls
over cards used by employees at the regional offices. Although the Bureau did not concur, it did
in fact consider our proposal and determined that additional controls were not needed and that
having a transaction limit would hamper the needs of the LCOs in an emergency. We believe that
the Bureau’s actions meet the intent of our recommendation.




                                                10
